                                                      u~       SEC&
                                                                  :-e.,                    ICN 31170-23-170
                                                     ~
                                                     \h!IIIlII~~
                                                       "vIsTV

                                      SOCIAL               SECURITY
                                     Office    of the Inspector           General
MEMORANDUM

Date: Jufle   19,  2001                                                                 Refer To:
       Larry G. Massanari
To:    Acting Commissioner

         of Social   Security

From:   Inspector General


Subject:Old-Age, Survivors and Disability     Insurance        Benefits    Paid to Deceased   Auxiliary
       Beneficiaries  (A-O1-00-20043)



        The attached final report presents the results of our review. Our objective was to
        determine whether the Social Security Administration had adequate procedures to
        ensure that Old-Age, Survivors and Disability Insurance benefits were terminated when
        an auxiliary beneficiary died.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the draft report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.

                                                                    "



                                                                                              "
                                                           ~




        Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




     OLD-AGE, SURVIVORS AND

  DISABILITY INSURANCE BENEFITS

         PAID TO DECEASED

     AUXILIARY BENEFICIARIES


   June 2001      A-01-00-20043





   AUDIT REPORT

                                      Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration  officials, the Congress, and the public.

                                     Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  0   Conduct and supervise independent and objective audits and

      investigations relating to agency programs and operations.

  o   Promote economy, effectiveness, and efficiency within the agency.

  0   Prevent and detect fraud, waste, and abuse in agency programs and

      operations.

  0   Review and make recommendations        regarding existing and proposed

      legislation and regulations relating to agency programs and operations.

  0   Keep the agency head and the Congress fully and currently informed of

      problems in agency programs and operations.


  To ensure objectivity,   the IG Act empowers   the IG with:

  o   Independence to determine what reviews to perform.
  0   Access to all information necessary for the reviews.
  0   Authority to publish findings and recommendations    based on the reviews.

                                       Vision

By conducting independent and objective audits, investigations,  and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          Executive Summary
OBJECTIVE

Our objective was to determine whether the Social Security Administration (SSA) had
adequate procedures to ensure that Old-Age, Survivors and Disability Insurance
(OASDI) benefits were terminated when an auxiliary beneficiary died.

BACKGROUND

The OASDI program provides retirement benefits to insured individuals who have
reached the minimum retirement age, survivors’ benefits to dependents of insured
wage earners in the event the family wage earner dies, and disability benefits to
disabled wage earners and their families. Children, widows, spouses, and parents who
receive OASDI benefits based on another wage earner’s Social Security record are
referred to as auxiliary beneficiaries; and their benefit payments should terminate when
they die.

SSA uses the Death Alert, Control, and Update System (DACUS) to receive death data
from external and internal sources and to process that information against SSA's
records. The purpose of DACUS is to: (1) ensure that all types of benefits to deceased
beneficiaries are terminated, if appropriate; and (2) produce a national file of death
information known as the Death Master File (DMF).

In May 2000, the Office of the Inspector General’s Office of Investigations (OI)
conducted a pilot project in Connecticut in which it confirmed that 11 of 33 beneficiaries
received over $180,000 in benefit payments after their dates of death. As a result of
OI’s pilot project, we initiated this audit to assess the nationwide extent of this
weakness in SSA’s death matching process.

RESULTS OF REVIEW

SSA can improve its current death matching process to ensure that OASDI benefits are
terminated when death notices are received for auxiliary beneficiaries. We estimate
that 881 deceased auxiliary beneficiaries received $31 million in OASDI benefits
after their dates of death. Additionally, we estimate that 4,152 auxiliary beneficiaries
receiving OASDI payments have a date of death recorded on SSA’s Numident file even
though the beneficiaries are actually alive.

CONCLUSIONS AND RECOMMENDATIONS

Although SSA’s current death matching process identifies and terminates OASDI
payments to most deceased beneficiaries, improvements can be made to further refine
the process and ensure that SSA does not pay deceased beneficiaries. If SSA does


OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)               i
not take action, additional beneficiaries may be incorrectly paid after their deaths.
Further, SSA’s death matching process can be refined to ensure that living
beneficiaries do not have a date of death on their Numident record, so that living
beneficiaries will not have their benefits terminated prematurely.

SSA has plans to upgrade its DACUS system to resolve some of the problems in the
future, but the Agency should take steps now to address the death information that
conflicts with current payments being made. Specifically, we recommend that SSA:

   �	 Periodically (at least annually) match its DMF against its auxiliary payment
      records to identify records in which a date of death is posted on the DMF but for
      which payment records show current benefit payments.

   �	 Resolve the discrepancy between the dates of death on the Numident file and
      the current payment status on the Master Beneficiary Record for the 2,721
      records in our population that are not being reviewed by OI and were not
      included in our sample. Refer any cases suspected to involve fraud to OI.

   �	 Remind staff to fully follow SSA’s procedures when processing death alerts to
      ensure all records requiring action are identified and corrected.

AGENCY COMMENTS
In response to our draft report, SSA agreed with all of our recommendations. (See
Appendix C for SSA’s comments.)




OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)                 ii
                                                           Table of Contents

                                                                                                                  Page

INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 4


    Sample Results - OASDI Benefits Paid to Auxiliary Beneficiaries with a

    Date of Death.................................................................................................... 4


    •    OASDI Payments to Deceased Auxiliary Beneficiaries ............................... 4


    •	 Reasons Why Deceased Auxiliary Beneficiaries Were Not

       Identified Through SSA’s Routine Death Matching Process........................ 6


    Erroneous Dates of Death on Living Beneficiaries’ Records............................. 7


    •    Reasons Why Erroneous Deaths Are on SSA Records .............................. 8


CONCLUSIONS AND RECOMMENDATIONS ...................................................... 9


APPENDICES


APPENDIX A – Sampling Methodology and Results


APPENDIX B – SSA’s Death Matching Process


APPENDIX C – Agency Comments


APPENDIX D – OIG Contacts and Staff Acknowledgments





OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)
                                                                          Acronyms

   BOAN          Beneficiary’s Own Account Number


   CPS           Critical Payment System


   DACUS         Death Alert, Control, and Update System


   DMF           Death Master File


   DOD           Date of Death


   OASDI         Old-Age, Survivors and Disability Insurance


   OI            Office of Investigations


   SSA           Social Security Administration





OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)
                                                                     Introduction

OBJECTIVE

Our objective was to determine whether the Social Security Administration (SSA) had
adequate procedures to ensure that Old-Age, Survivors and Disability Insurance
(OASDI) benefits were terminated when an auxiliary beneficiary died.

BACKGROUND

The OASDI program provides retirement benefits to insured individuals who have
reached the minimum retirement age, survivors’ benefits to dependents of insured
wage earners in the event the family wage earner dies, and disability benefits to
disabled wage earners and their families. Children, widows, spouses, and parents who
receive OASDI benefits based on another wage earner’s Social Security record are
referred to as auxiliary beneficiaries; and their benefit payments should terminate when
          1
they die.

To identify deceased beneficiaries and prevent erroneous payments after death, SSA
matches death records from Federal, State,2 and local public agencies against its
payment records. SSA also receives and processes death notifications from
beneficiaries’ representative payees, relatives, friends, and neighbors; as well as from
funeral homes and financial institutions. When SSA receives notification of a death (for
a beneficiary or non-beneficiary), it is recorded on the Agency’s Numident file3 and
becomes part of the Death Master File (DMF).4

In February 1988, SSA implemented the Death Alert, Control, and Update System
(DACUS) to receive death data from external and internal sources, and to process that
information against SSA's payment records. DACUS sends an alert to the appropriate
SSA field office for processing when death information is received that does not agree
with SSA payment records. For example, if DACUS shows a date of death for a
beneficiary, but the SSA payment record shows that the beneficiary is alive, an alert is
generated and the discrepancy will be investigated. If the field office determines the


1
 As stated in 20 CFR 404.316, 20 CFR 404.332, 20 CFR 404.337, 20 CFR 404.341, 20 CFR 404.352,
and 20 CFR 404.371.
2
 Section 205(r) of the Social Security Act requires that SSA match States’ death records against SSA
payment records.
3
  The Numident file, which includes approximately 66 million records, contains identifying information
(such as name, date of birth, date of death, mother’s maiden name, etc.) for each individual issued a
Social Security number.
4
  The DMF is the repository for adding, correcting, and deleting death information received from SSA’s
routine death matching operation and is housed in SSA’s Numident file.


OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)                                  1
date of death is accurate, steps will be taken to terminate the payments and collect any
benefits paid after the date of death. (See the flowchart in Appendix B for a diagram of
SSA’s death matching process).

DACUS ensures that all types of benefits to deceased beneficiaries are terminated, if
appropriate; and produces a national file of death information—the DMF. Specifically,
the function of DACUS is to:

    �   receive death reports from various sources;

    �	 compare the dates of death to SSA’s payment records to detect conflicting
       information or incorrect payments made after a beneficiary's death;

    �	 generate, control, and follow up on alerts to SSA field staff if there is conflicting
       data with or among the payment records; and

    �   post death information to SSA’s DMF.

DACUS does not generate death alerts when the only conflict in death information is
with SSA’s Numident file. Also, when DACUS receives death information and
compares it to SSA’s Numident and payment files without a successful match (due to
mismatches on name, date of birth, etc.), the record is posted to an exception file.5
According to SSA staff, DACUS statistics for 1999 show:

    �   over 2.3 million death records were added to the system;

    �   384,549 death records were modified on the system;

    �   23,494 death records were deleted from the system; and

    �	 118,810 death records were exceptions and therefore not processed
       (45,239 exceptions for gender; 42,896 exceptions for dates of birth; and
       30,675 exceptions for name).




5
  An Office of the Inspector General report titled “Performance Measure Review: Summary of
PriceWaterhouseCoopers, LLP Review of SSA’s Performance Data” (A-02-00-20024) issued in March
2000 recommended that SSA develop policies and procedures for the resolution of exceptions in DACUS
and establish a work group with primary responsibility for this. SSA agreed and DACUS release 5 will be
the vehicle for implementing changes recommended by the workgroup.


OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)                           2
In May 2000, the Office of the Inspector General, Office of

Investigations (OI) notified us that it had investigated two cases

involving individuals who were receiving auxiliary benefits under

the OASDI program, even though they were deceased and

SSA’s Numident file contained records of their deaths. Further,

SSA’s DACUS matching operation had not identified these

auxiliary beneficiaries as receiving payments after death. Based

on the results of these two cases, OI initiated a pilot project in

Connecticut which identified 33 beneficiaries receiving auxiliary

benefits even though there were dates of death on SSA’s

Numident file. OI confirmed that 11 of the 33 beneficiaries were

deceased by obtaining death certificates from the Bureau of Vital Statistics in

Connecticut. Furthermore, over $180,000 in benefits were incorrectly paid after the

dates of death for these 11 beneficiaries. As a result of OI’s pilot project, we initiated

this audit to assess the nationwide extent of this system weakness.


SCOPE AND METHODOLOGY
To accomplish our objective, we:

�	 Matched a file of auxiliary beneficiaries (spouse, widow, parent, child) against the
   DMF and identified 5,033 beneficiaries nationwide who continued to receive OASDI
   benefit payments in May 2000 despite their dates of death on SSA’s DMF.

�	 Sampled 200 of the 5,033 beneficiaries for review and had the appropriate SSA field
   office confirm whether each beneficiary was actually deceased. (See Appendix A
   for details of our sampling methodology.)

�	 For those beneficiaries in our sample who were deceased, we calculated the
   amount of OASDI benefits paid since the dates of death.

�   Referred cases suspected of fraud to OI.

�	 Discussed with SSA staff possible causes for why the cases were not identified
   during SSA’s routine death matching process.

�	 Researched the Programs Operations Manual System, the Code of Federal
   Regulations, and the Social Security Act.

We conducted our audit between September 2000 and January 2001 in Boston,
Massachusetts. The entities audited were SSA’s Field Offices under the Deputy
Commissioner for Operations and the Office of Systems Design and Development
under the Deputy Commissioner for Systems. We conducted our audit in accordance
with generally accepted government auditing standards.




OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)                 3
                                                Results of Review

SSA can improve its current death matching process to ensure that OASDI benefits are
terminated when death notices are received for auxiliary beneficiaries. We estimate
that SSA paid $31 million in OASDI benefits to 881 deceased auxiliary beneficiaries
between their dates of death and December 2000. Additionally, we estimate that
4,152 auxiliary beneficiaries receiving OASDI payments have erroneous dates of death
recorded on SSA’s Numident file even though the beneficiaries were actually alive as of
December 2000.

SAMPLE RESULTS - OASDI BENEFITS PAID TO AUXILIARY
BENEFICIARIES WITH A DATE OF DEATH
Our review of 200 beneficiary sample cases receiving auxiliary benefits despite a date
of death posted to SSA’s Numident file showed that:
                                                          �	 33 (or 16.5 percent) were
             Sample Results - Auxiliary                      deceased and 27 of the
          Beneficiaries with a Date of Death                 33 received OASDI benefits after
                                                             they died;
                                        Still
                                       under
                                      review              �	 165 (or 82.5 percent) had
                                       1.0%                  erroneous dates of death on
         Alive                                               SSA’s Numident file; and
        82.5%                           Dead
                                        16.5%
                                                          �	 2 (or 1.0 percent) are still under
                                                             review by SSA to determine
                                                             whether they are deceased.


OASDI PAYMENTS TO DECEASED AUXILIARY BENEFICIARIES

We found that 33 of our 200 sample beneficiaries (16.5 percent) were actually
deceased, and SSA paid over $1.07 million in OASDI benefits to 27 of the
33 beneficiaries after their dates of death (through December 2000). These
27 beneficiaries continued to be paid benefits between 19 and 154 months after their
deaths, with an average of 63 months elapsing between a beneficiary's death and
December 2000 (when we completed our review of the cases).

After SSA field office staff confirmed that the beneficiaries were deceased, they initiated
the necessary steps to reclaim the funds, a portion of which was still in the bank
accounts where the benefits were direct deposited after the beneficiaries’ deaths. As of
January 2001, SSA had recovered $104,000 of the benefits paid after death, and SSA
continues to take action to collect the remaining funds.




OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)                     4
SSA did not pay OASDI benefits to 6 of the 33 deceased auxiliary beneficiaries after
their dates of death because the deaths were recent and the payments were stopped
promptly. Specifically, six of the beneficiaries in our sample were initially receiving
benefit payments even though their Numident records showed dates of death between
                 6
1991 and 1997. However, these six auxiliary beneficiaries actually died between April
and October 2000. The correct dates of death were posted to their records and
benefits were terminated at the time of their actual deaths in 2000.

An example of one of the beneficiaries in our sample is a widow who was receiving
auxiliary benefits under the OASDI program in May 2000 based on her husband’s
Social Security payment record even though her Numident record showed that she died
on November 30, 1993. We referred this case to the appropriate SSA field office and
the SSA staff confirmed with the City Clerk’s office that the beneficiary died in 1993. As
a result, SSA:

    �   Terminated the benefit payments in November 2000.

    �	 Calculated that over $100,000 had been inappropriately paid since the date of
       death.

    �   Requested photocopies of the cashed checks from the Treasury Department.

    �	 Referred the case to the local OI office since the benefit checks were cashed
       after the beneficiary died.

Possible Deceased Beneficiary Cases

In addition to the 33 beneficiaries who have been confirmed by SSA as deceased, 2 of
our 200 sample cases have not yet been confirmed to be either dead or alive. SSA is
still in the process of working these cases. However, as of January 2, 2001, SSA had
suspended benefit payments for both cases and at least one month had elapsed
without any contact from the beneficiary regarding the non-receipt of the prior month’s
benefits. This is a strong indication that these individuals are actually deceased; and as
of January 2001, these two beneficiaries received $171,000 in benefits since the dates
of death shown on their records. As a result, these cases are unresolved and we are
treating them as being dead.

Referrals to OI

We referred the cases in our sample in which the beneficiaries were actually deceased
and were paid benefits after their dates of death to OI for investigation. It appears in
some cases that someone may have accessed the funds paid after the auxiliaries’
deaths. Additionally, OI matched our population of 5,033 deceased auxiliary

6
 The six auxiliary beneficiaries initially had erroneous dates of death of April 1990, May 1991, June 1991,
December 1991, October 1995, and September 1997.



OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)                               5
beneficiaries against their own file of deceased beneficiaries most likely to involve fraud
and accepted 2,198 for possible investigation.7 The remaining 2,835 cases are not
being pursued by OI at this time since activity on these beneficiaries’ records indicate
the dates of death may be erroneous due to one or more of the following reasons:

    �	 SSA’s Critical Payment System (CPS) shows a payment was made after the
       date of death;

    �	 the date of death for the auxiliary beneficiary is the same as the primary wage
       earner’s date of death; or

    �	 the auxiliary beneficiary’s date of death was before his/her date of initial
       entitlement to benefits.

OI also did not accept for investigation cases that involved a beneficiary other than a
widow/widower or a beneficiary living in a foreign country.

REASONS WHY DECEASED AUXILIARY BENEFICIARIES WERE NOT IDENTIFIED
THROUGH SSA’S ROUTINE DEATH MATCHING PROCESS

SSA created DACUS in 1988 to identify potential discrepancies between death records
and payment records. However DACUS does not identify all discrepancies which would
result in the termination of benefits to deceased beneficiaries. Our audit identified the
following specific issues:

�	 If a beneficiary is currently receiving OASDI benefits and a SSA employee posts a
   date of death to the individual’s Numident record through DACUS and does not also
   input a death termination to the Master Beneficiary Record, benefit payments will
   not automatically terminate and a DACUS alert will not be generated as a result of
   the discrepancy. SSA staff indicated that this was a known problem that they are
   working on, but they could not provide an estimated time for correcting it.

�	 DACUS is not designed to identify dual entitlement cases.8 SSA is aware of this
   problem and is working to resolve it, but SSA staff asserted that some dual
   entitlement cases involving a death termination are identified through other SSA

7
 In addition to the 2,198 cases that appeared in both Office of Audit and OI’s data extracts, OI identified
an additional 736 deceased auxiliary cases for possible investigation for a total of 2,934 cases. As of
February 2001, the Boston Regional OI office, in conjunction with SSA, has investigated 18 beneficiaries
who were deceased and received approximately $597,000 in benefits after their dates of death.
Approximately $297,000 of the funds have been lost to fraud and $300,000 are recoverable through SSA’s
Treasury reclamation process. Additionally, in one case out of New York, family members of an individual
who had been deceased since August 1996, handed over to OI Special Agents 51 OASDI checks totaling
$43,276. The recovered checks have been returned to SSA and payments terminated.
8
 Beneficiaries who are entitled to OASDI benefits based on their own Social Security record as well as
based on another wage earner’s record are referred to as dually entitled.



OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)                              6
      systems. Out of our 200 sample cases, 8 beneficiaries9 were dually entitled and
      were not identified by SSA’s other systems for resolution of the discrepancy
      between the auxiliary record’s current payment status and a report of death.

�	 DACUS processes cases based on the beneficiary’s own account number (BOAN).
   Therefore, if a BOAN (i.e., Social Security number) for the auxiliary beneficiary was
   not on the primary wage earner’s record at the time DACUS processed the death
   notification, the case would not be identified. We could not determine whether the
   auxiliaries’ BOANs were present on the wage earner’s payment record at the time
   the date of death was reported to SSA and posted to the Numident.

      Additionally, if a BOAN is not cross referenced to a beneficiary’s other payment
      records, SSA staff may not be aware that the beneficiary is receiving payments on
      another wage earner’s record, and will not take the necessary action to resolve the
      death alert.

ERRONEOUS DATES OF DEATH ON LIVING BENEFICIARIES’
RECORDS
We found that 165 of the 200 beneficiaries (82.5 percent) in our sample are alive and
had erroneous dates of death posted to their Numident records. As of January 2001,
SSA had corrected 142 of these records by removing the erroneous dates of death
from the Numident records; and the remaining 23 records were in the process of being
corrected.

A specific example includes a widow who was receiving benefits under her husband’s
Social Security payment record. The husband died in 1959 and the widow filed and
started receiving benefits under his record in 1962. The widow continues to receive
benefit payments today even though SSA posted a date of death of July 15, 1997 to
her Numident record in December of that year. Benefits did not terminate when the
date of death posted to the Numident. In October 2000, SSA staff interviewed the
widow and confirmed that she was alive. SSA then corrected the Numident record by
removing the erroneous date of death. According to SSA staff at the field office, the
beneficiary indicated that this was the third time she had been contacted by SSA
regarding an erroneous record of her death.

It is important that SSA take all the necessary steps to correct erroneous dates of
death, since this could lead to poor public relations and could impact SSA’s
commitment to provide the public with superior customer service. The beneficiary in
our example is only 1 of 65 individuals who had previously proven to SSA that they
were alive.10 If SSA had taken all the required steps to correct these beneficiaries’

9
    Out of the 8 cases, 4 were actually deceased and 4 were alive.
10
  We determined that 65 beneficiaries were previously contacted by SSA for erroneous dates of death
because: (1) SSA’s CPS showed emergency payments were made for 51 cases when benefits were
prematurely terminated due to erroneous reports of death, (2) SSA field office staff informed us that


OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)                            7
records (both the payment record(s) and the Numident record) upon the initial contact,
these beneficiaries would not have been inconvenienced on multiple occasions to prove
their identity and/or benefits would not have been terminated prematurely.

REASONS WHY ERRONEOUS DEATHS ARE ON SSA RECORDS

Our audit identified several reasons why erroneous dates of death are on SSA records:

�	 Sometimes a deceased beneficiary’s date of death will get posted to another
   beneficiary’s Numident record. Specifically, we found that in 80 of our 200 sample
   cases (40 percent) the date of death of someone else on the primary record was
                                                         11
   posted to the auxiliary beneficiary’s Numident record. Although SSA is aware of
   this problem, they have not been able to pinpoint how or why it happens.

�	 When an auxiliary’s benefits are erroneously terminated for death, SSA’s
   procedures require that the erroneous date of death be removed from the payment
   record. When payments are resumed, SSA’s procedures also require that the
   erroneous date of death be removed from the beneficiary’s Numident record. This
   is a 2-step process since the correction of the payment record does not
   automatically correct the Numident record. A separate action must be taken to
   correct the Numident.

      From our review of 200 sample cases, it appears that SSA does not always fully
      comply with these procedures. This is based on the fact that 57 of our 200 sample
      cases (29 percent) involved a prior termination of benefits based on an erroneous
      date of death. SSA’s records show that: (a) the erroneous dates of death were
      removed from the payment records, (b) benefit payments were reinstated,
      and (c) payments were made to the beneficiaries through SSA’s CPS for the
      amount of benefits not paid based on the erroneous dates of death. However, only
      the beneficiaries’ payment records were corrected. The erroneous dates of death
      were not deleted from SSA’s Numident file; and, as a result, these beneficiaries
      appeared to be deceased and continuing to receive benefits after their dates of
      death.

      In November 2000, SSA completed its initiative for DACUS release 2.2 to correct
      this problem. This new version of DACUS will now automatically delete the
      Numident death record when a person who was erroneously terminated due to
      death is reinstated on their payment record.12

8 beneficiaries indicated that they had been contacted before about the erroneous date of death, and
(3) for the remaining 6 cases, both the CPS data and comments from SSA field office staff showed that
these beneficiaries had been contacted previously on this matter.
11
  For 77 cases, the wage earner’s date of death was posted as the auxiliary’s date of death. For three
cases, the representative payees’ date of death was posted as the auxiliary’s date of death.
12
     We did not test whether DACUS release 2.2 was working as intended.



OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)                             8
                                              Conclusions and
                                              Recommendations
Although SSA’s current death matching process identifies and terminates OASDI
payments to most deceased beneficiaries, improvements can be made to further refine
the process and ensure that SSA does not pay deceased beneficiaries. If SSA does
not take action, additional beneficiaries may be incorrectly paid after their deaths.
Further, SSA’s death matching process can be refined to ensure that living
beneficiaries do not have a date of death on their Numident record, so that living
beneficiaries will not have their benefits terminated prematurely.

SSA has plans to upgrade its DACUS system to resolve some of the problems in the
future, but the Agency should take steps now to address the death information that
conflicts with current payments being made. Specifically, we recommend that SSA:

   1. 	 Periodically (at least annually) match its DMF against its auxiliary payment
        records to identify records in which a date of death is posted on the DMF but for
        which payment records show current benefit payments.

   2. 	 Resolve the discrepancy between the dates of death on the Numident
        file and the current payment status on the Master Beneficiary Record for
        the 2,721 records in our population that are not being reviewed by OI and were
        not included in our sample. Refer any cases suspected to involve fraud to OI.

   3. 	 Remind staff to fully follow SSA’s procedures when processing death alerts to
        ensure all records requiring action are identified and corrected.

AGENCY COMMENTS
In response to our draft report, SSA agreed with all of our recommendations.
Specifically, SSA (1) plans to conduct a match of auxiliary payment records in July
2001; (2) expects to complete its review of the 2,721 records by the end of the fiscal
year; and (3) issued a memorandum on April 11, 2001 reminding staff to fully follow
death alert procedures. (See Appendix C for SSA’s comments.)




OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)              9
                                         Appendices





OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)
                                                                          Appendix A

Sampling Methodology and Results
From the Social Security Administration (SSA), we obtained the June 1999 Death
Master File (DMF) and matched it against a data extract of auxiliary beneficiaries
receiving OASDI benefits as of May 2000. This match resulted in 5,033 beneficiaries
who were receiving payments and also had dates of death recorded to the Numident as
of May 2000.

Our sample results and projections are detailed in the table below.

                            Sample Results and Projections
   Population size                                                              5,033
   Sample size                                                                   200
                         Attribute Projections
   Sampled cases where the beneficiary is deceased                                35
   Projection of cases where the beneficiary is deceased                         881
   Projection lower limit                                                        669
   Projection upper limit                                                       1,129

   Sampled cases with an erroneous date of death –                               165
   beneficiary is alive
   Projection of cases with an erroneous date of death                          4,152
   Projection lower limit                                                       3,904
   Projection upper limit                                                       4,364
                    Dollar Projections/Estimates
   Sample Results – Overpayments paid after confirmed                      $1,249,191
   death
   Projection – Overpayments paid after confirmed death                   $31,435,889
   Projection lower limit                                                 $20,323,954
   Projection upper limit                                                 $42,547,824
   Note:   All projections are at the 90 percent confidence level.




OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)
                                                                                             Appendix B

SSA’s Death Matching Process
             Internal and external
               sources of death
                  information




         Death Alert, Control, and Update
                System (DACUS)




               Does name, date                             Unresolved
               of birth, etc. from                         exceptions
               internal/external              No          generated -
                 source match                           death report not           stop
               Numident and/or                           processed any
                payment record                               further.
                    exactly?



                              Yes


                                                            Benefits terminated
                   Does death
                                                            and death
                information from                  Yes       information posted
                internal/external                           to the Numident                  stop
               source agree with                            and the Death
                  SSA payment                               Master File.
                     record?

                              No




                     Is the                 Yes          To
                  beneficiary
                                                        page
                   receiving
                                                         B-2
                   benefits?



                                     If no benefits are paid or if the death pertains to a
                            No
                                     non-beneficairy, the date of death is posted to the            stop
                                     Numident and included in the Death Master File.




OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)                                    B-1

                             From
                             page
                              B-1




                                                                         Does payment
                        Does payment
                                                       Yes                record show
                          record show                                                               No
                                                                        DOD after DOD
                        Date of Death                                                                           stop
                                                                               from
                           (DOD)?
                                                                        internal/external
                                                                             source?



                        No                                                        Yes



                                    Death Alert generated and sent to SSA
                                                  field office (FO).



                                       FO confirms whether beneficiary
                                      is dead or alive; and if applicable,
                                         FO ascertains correct DOD.



                                      Obtain current payment record(s)
                                            and Numident query *




                                                  Did the FO                                 No
                                                 determine the                                            To
                                                beneficiary was                                          page
                                                     alive?                                 DEAD          B-3


                                                 Yes         ALIVE
 * Note: If beneficiary is
 receiving benefits on
 more than one
 payment record and                       Ensure benefit payments
 the records are not                    continue. Remove erroneous
 cross referenced to                    DOD from payment record. *
 each other, the
 appropriate actions (as
 shown here) may                                                                      Correction
 not be taken to                                                                      posted to
                                       Remove erroneous DOD from                      Death
 terminate benefits or                                                                                     stop
                                           DACUS / Numident                           Master File
 remove an erroneous
 DOD.




OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)                                            B-2
                                                  From
                                                  page
                                                      B-2




                                        Beneficiary     Deceased




                                              Terminate benefit
                                          payments. Ensure correct
                                             DOD is on payment
                                         record(s) and Numident
                                                      record.




                                           Post death information to
                                              Death Master File.




                                             Refer cases involving
                                          possible fraud to the Office
                                           of the Inspector General,
                                            Office of Investigations.




                                                  stop




OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)   B-3
                                                                          Appendix C


Agency Comments





OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)
                                                       .J-"SEC(,
                                                      O(j~~
                                                     W/ts~~
                                                     \ IIIIlIt~~
                                                         1SnJ.
                                         SOCIAL         SECURITY

MEMORANDUM


Date       May 25,2001                                                            Refer To: SlJ-3


To:        JamesG. Ruse, Jr.
           Inspector General

From       Larry G. Massanari
           Acting Commissioner of

Subject:   Office of the Inspe9~or fener~l (OIG) Draft Report, "Old-Age, Survivors and Disability
           Insurance Benefits~aid
                             ,. .. to Deceased Auxiliary Beneficiaries" (A-OI-00-20043)-
           INFORMA TION .



           We appreciateoIaIs efforts in conducting this review and agreewith the corrective actions
           recommended. Our comments on the specific recommendations are attached.

           Pleaselet us know if we can be of further assistance.Staff questionsmaybe referred to
           Dan Sweeneyon extension 51957.
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT REPORT,
"OLD-AGE, SURVIVORS AND DISABILITY INSURANCE BENEFITS PAID TO DECEASED
AUXILIARY BENEFICIARIES" (A-01-00-20043)


Recommendation 1

Periodically (at least annually) match its Death Master File (DMF) against its auxiliary payment
records to identify records in which a date of death is posted on the DMF but for which payment
records show current benefit payments.

Comment

We agree. The Office of Systems will conduct a one-time match against auxiliary payment
records in July 2001. Inclusion of scheduled periodic matching in the Client/Enumeration 5-year
Plan is to be discussed at the next planning committee meeting, scheduled for August 2001.

Recommendation 2

Resolve the discrepancy between the dates of death on the Numident file and the current payment
status on the Master Beneficiary Record for the 2,721 records in our population that are not being
reviewed by the Office of Investigation (OI) and were not included in our sample. Refer any
cases suspected to involve fraud to OI.

Comment

We agree. On April 24, 2001, the Office of Operations released the records to the regions with
instructions/procedural references on how the discrepancies should be resolved. The instructions
also included directions on referring suspected fraud cases to OI. We expect this workload to be
completed by the end of the fiscal year.

Recommendation 3

Remind staff to fully follow the Social Security Administration’s (SSA) procedures when
processing death alerts to ensure all records requiring action are identified and corrected.

Comment

We agree and have taken action to implement the recommendation. On April 11, 2001, a
memorandum was released nationwide reminding staff to fully follow the procedures when
processing death alerts, ensuring all records requiring action are identified and corrected.




OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)                        C-2
                                                                          Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Rona Rustigian, Acting Director, Disability Program Audit Division, (617) 565-1819

    Judith Oliveira, Acting Deputy Director, (617) 565-1765

Acknowledgments
In addition to those named above:

    Kevin Joyce, Auditor
    Katie Hallock, Auditor
    Joseph LoVecchio, Auditor

For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-01-00-20043.




OASDI Benefits Paid to Deceased Auxiliary Beneficiaries (A-01-00-20043)
                                        DISTRIBUTION                SCHEDULE

                                                                                                        No. of
                                                                                                        CaRies

Commissioner        of Social Security                                                                         1
Management        Analysis      and Audit Program          Support    Staff, OFAM                         10

Inspector     General                                                                                          1
Assistant     Inspector     General     for Investigations                                                     1
Assistant     Inspector     General     for Executive      Operations                                          3
Assistant     Inspector     General     for Audit                                                              1
                                                       I
Deputy Assistant          Inspector     General     for Audit                                                  1
  Director,    Systems       Audit Division

  Director,    Financial     Management           and Performance       Monitoring     Audit Division          1
  Director,    Operational      Audit Division                                                                 1

  Director,    Disability    Program      Audit Division                                                       1

  Djrector,    Program       Benefits    Audit Division                                                        1

  Director,    General      Management        Audit Division

Issue Area Team Leaders                                                                                   25


Income Maintenance            Branch,     Office of Management           and Budget                            1


Chairman,      Committee       on Ways and Means                                                               1
Ranking     Minority    Member,       Committee       on Ways and Means                                        1
Chief of Staff, Committee             on Ways and Means                                                        1
Chairman,      Subcommittee           on Social Security                                                       2
Ranking     Minority    Member,       Subcommittee         on Social Security                                  1
Majority    Staff Director,     Subcommittee          on Social Security                                       2
Minority    Staff Director,     Subcommittee          on Social Security                                       2
Chairman,      Subcommittee           on Human       Resources                                                 1
Ranking     Minority    Member,       Subcommittee         on Human Resources

Chairman,      Committee       on Budget,      House of Representatives

Ranking     Minority    Member,       Committee       on Budget,      House of Representatives

Chairman,      Committee       on Government           Reform and Oversight

Ranking     Minority    Member,       Committee       on Government        Reform and Oversight

Chairman,      Committee       on Governmental           Affairs

Ranking     Minority    Member,       Committee       on Governmental       Affairs

                                                                                                       Page 2

Chairman,      Committee           on Appropriations,      House of Representatives                       1
Ranking Minority Member, Committee                      on Appropriations,
 House of Representatives                                                                                 1
Chairman, Subcommittee     on Labor, Health and Human Services,                          Education
 and Related Agencies, Committee on Appropriations,
  House of Representatives                                                                                1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                                                 1
Chairman,      Committee           on Appropriations,      U.S. Senate                                    1
Ranking      Minority     Member,      Committee        on Appropriations,      U.S. Senate               1
Chairman, Subcommittee                on Labor, Health and Human Services, Education
 and Related Agencies,               Committee on Appropriations, U.S. Senate                             1
Ranking Minority Member, Subcommittee   on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                                              1
Chairman,      Committee           on Finance                                                             1
Ranking      Minority     Member,      Committee        on Finance                                        1
Chairman,      Subcommittee           on Social Security       and Family Policy                          1
Ranking      Minority     Member,      Subcommittee         on Social Security     and Family Policy      1
Chairman,      Senate      Special Committee            on Aging                                          1

Ranking      Minority     Member,      Senate   Special Committee            on Aging                     1

Vice Chairman, Subcommittee                  on Government         Management       Information
  and Technology                                                                                          1
President,     National     Council     of Social Security      Management        Associations,
  Incorporated                                                                                            1
Treasurer,     National      Council     of Social Security     Management        Associations,
  Incorporated                                                                                            1
Social Security         Advisory     Board                                                                1
AFGE General        Committee                                                                             9
President,     Federal      Managers       Association                                                    1
Regional     Public Affairs Officer                                                                       1


Total                                                                                                    97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensivefinancial and performance audits of the
Social Security Administration's (SSA) programs and makes recommendations to ensurethat
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assesswhether SSA' s financial statementsfairly present
the Agency's financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA' s programs. OA also conducts short-term
managementand program evaluations focused on issuesof concern to SSA, Congress,and the
generalpublic. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supportsthe Office of the Inspector General (OIG) by
providing information resourcemanagement;systemssecurity; and the coordination of budget,
procurement, telecommunications, facilities and equipment, and human resources. In addition,
this office is the focal point for the OIG's strategic planning function and the development and
implementation of performance measuresrequired by the Government Performance and Results
Act. OEO is also responsible for performing internal reviews to ensurethat OIG offices
nationwide hold themselves to the samerigorous standardsthat we expect from the Agency, as
well as conducting employee investigations within OIG. Finally, OEO administers OIG's public
affairs, media, and interagency activities and also communicates OIG's planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (01) conducts and coordinates investigative activity related to fraud.
waste, abuse,and mismanagementof SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representativepayees,third
parties, and by SSA employeesin the performance of their duties. Or also conductsjoint
investigations with other Federal, State,and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: l) statutes,regulations, legislation, and policy directives
governing the administration of SSA' s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the DIG. The Counsel's office also administers the civil monetary penalty program.
